                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: Al0110078                                                                        Page 1 of 1



                OIG received allegations that a PI (Subject) 1 of an NSF Proposaf plagiarized text from a
         previously awarded NSRProposal.

                 We referred the investigation to the University3 which concluded, based on a preponderance
         of the evidence, that the Subject was found to have recklessly plagiarized. The University deemed it
         a significant departure from accepted practices; the University took actions to protect its interests.
                We adopted the University's findings and concluded, based on a preponderance of the
         evidence, that the Subject recklessly plagiarized in his NSF Proposal. We deemed it a significant
         departure from accepted practices and recommended actions to protect the federal interest. The
         Senior Advisor to the Director concurred.

                  This memo, the attached Report oflnvestigation, and the Senior Advisor to the Director's
         letter constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
        National Science Foundation • 4201 Wilson Boulevard • Arlington, Virginia 22230
                                   Office of t4~ Inspector General
                                          DEC 2·0 2011 ·



To:            Cora B. Marrett
               Deputy Director

From:          Allison C. Lerner (}__(},1-ffr'...-   C ~ ~-z-----z/
               Inspector General

Subject:       Research Misconduct Investigation Report Al0110078


        Attached is our confidential investigation report coJD.ce:rrn.ng aweg::tiiGin of research
misconduct against Dr.                  an employee                                           . On
the basis of our investigation, we concluded that Dr.        plagiarized material submitted in one
proposal to NSF.

       We recommend that NSF fmd that Dr. ~ommitted research misconduct and take
additional actions, which we believe will adequately protect NSF' s interests. Each of our
recommended actions is described in detail in the report. The actions we recommend are
consistent with previously adjudicated cases (A07040020, A081 00048). The subject concurred
with our draft report.



        is-
       If you have any questions about the investigation report or our recommended findings
and disposition, I would be happy to discuss them with you. My staff point of contact for this
matter                at 7 0 3 - .



Attachment

cc:     Lawrence Rudolph, General Counsel
        Joan Frye, Office of the Director's Liaison to OIG
                                                                                                        I


CONFIDENTIAL                                                                       CONFIDENTIAL




       National Science Foundation
        Office of Inspector General




                       Confidential
                  Report of Investigation
                 Case Number A10110078
                         20 December 2011

                              ~   .   ~   .                      .
                This Confidential Report of Investigation is provided to you
                                      FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U .S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This repert may be .disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a Please take appropriate precautions handling this confidential report of investigatioli

                                                                             NSF OIG Form 22b (12/10)
CONFIDENTIAL                                                         CONFIDENTIAL


                                   Executive Summary

Allegation:         Plagiarism from an awarded NSF CAREER proposal into the Subject's NSF
                    CAREER proposaL

OIG Inquiry:        We identified approximately 108 lines and 4 embedded references
                    apparently plagiarized into the Subject's CAREER proposal (the Proposal),
                    from an awarded NSF CAREER proposal (the Source). The Subject
                    admitted that he copied from the Source, which he obtained from its author.

University          The University conducted an investigation. Its committee found that the
Investigation and   Subject recklessly plagiarized the Source, and the Deciding Official
Action:             concurred. The University required the Subject to write a letter of admission
                    of responsibility to be kept on file with the President of the University;
                    prohibited the Subject from being a PI or Co-PI on any research proposal for
                    twu years; required the Subject to certifY all proposals for three years
                    following the two year internal bar from submitting proposals; required the
                    Subject to complete both a research ethics courses and a mentoring course;
                    and postponed the Subject's tenure review.

OIG's Assessment:   •   The Act: Nearly verbatim plagiarism of 108 unique lines and 4
                        embedded references from an awarded CAREER proposal.
                    •   Intent: The Subject acted recklessly.
                    •   Significant Departure: The Subject's actions are a significant
                        departure from the accepted practices of the research community.
                    •   Standard of Proof: The preponderance of the evidence supports the
                        conclusion regarding the act and intent, and therefore a finding of
                        research misconduct.
                    •   Pattern: None apparent.

OIG
Recommendation:     •   Send the Subject a letter of reprimand notifying him that NSF has made
                        a finding of research misconduct.
                    •   Require the Subject to certify completion of both the RCR training
                        program and the mentorship/supervision training specified by the
                        University and provide documentation of the programs' contents within
                        1 year ofNSF's finding.
                    •   Require the Subject to submit certifications for 3 years.
                    •   Require the Subject to submit assurances from his employer for
                        3 years.
                    •   Bar the Subject from participating as a reviewer, advisor~ or consultant
                        for NSF for a period of 3 yecq-s.




                                                                                              1
 CONFIDENTIAL                                                             CONFIDENTIAL


                                              . OIG's Inquiry

        We reviewed an allegation of plagiarism in an NSF CAREER proposal 1 (the Proposal)
and identified approximately 108 lines and 4 embedded references allegedly copied from another
                                                               4
NSF CAREER proposal (the Source 2). We wrote3 to the PI (the Subject), who told us that the
                                                             5
Source proposal author emailed bini a copy of the Source. The Subject stated he then gave the
copy, along with some of his own articles to one of his students to use as writing examples. He
also said the student copied some of the material into the Proposal from the Source and
submitted the first draft withoilt checking for copied text. The Subject admitted to insufficient
oversight of the student and to his failure in thoroughlyreviewing the draft prior to submission. 6

       Given the extent of the plagiarism and the fact that the Source was an awarded NSF
proposal, we referred an investigation to the Subject's university 7 (the University). 8

                                     The University's Investigation9

          The University appointed an investigation committee (the Committee) composed of five
  faculty members to investigate the allegation consistent with the requirements of the University
  policy and 45 C.F .R. Part 689. 10 •11 The Committee reviewed the Proposal, the Source, and the
. Subject's admission in his response to our inquiry. They also reviewed an additional 7 proposals
  and 26 publications of the Subject's, but found no pattern of plagiarism. 12 The Committee
  conducted an interview with the Subject during which the Subject accepted all responsibility 13
  and claimed that a student had copied all portions originating from the Source after the Subject
  provided the Source as an example document. 14 The Subject told the committee he had the
  student practice drafting as a type of training exercise, After deliberation, the Committee
  decided not to include the student as an additional subject in this investigation, concluding that
  the evidence demonstrates that the Subject is ultimately the responsible party. 15

       The Committee substantiated the allegation, citing the SubjeCt' s admission and
concluding that "he did not exercise the expected level of supervision of a graduate student." 16




3
  Tab 5.
9
  Tab 6, The University's Investigation Report and Appendixes.
10
   Tab 8, the University policy.
11
   Tab 6 at 78.
u Tab 6 at 85.
13
   Tab 6 at 82 and 83.
14
   Tab 6 at 80 and 81.
15
   Tab 6 at 86.
16
   Tab 6 at 85.


                                                                                                    2
CONFIDENTIAL                                                            CONFIDENTIAL


The Committee concluded that research misconduct had taken place, writing: "This is a
significant departure from the accepted practices of the scholarly community." 17 Because the
Subject allowed a Master's student to compose his CAREER proposal "with the potential to
shape his career for five years and beyond," and because the Subject did not properly review the
Proposal, the Committee found his behavior reckless. 18

        The Committee recommended that: 1) a letter of reprimand should be kept on file with
the Provost indefinitely; 2) the Subject not be allowed to serve as a Co-PI for 6 months, nor as a
PI for 1 year; 3) the Subject complete a course on research ethics, and receive training on "the
proper mentoring of students"; and 4) for 5 years submit his proposals to a designee of the Office
of the Vice President for Research for review for research misconduct. 19

         The Deciding Official20 concurred with respect to the fmding of research misconduct but
modified the Committee's recommendations to: 1) require the Subject to write a letter admitting
fault to the University President, copying the Provost and Vice President for Research, to remain
on file indefinitely; 2) ban the Subject from serving as a PI or Co-PI on any research proposals
for 2 years; 3) require the Subject to complete RCR courses within 60 days 2 \ 4) require the
Subject to attend training on proper mentoring and supervision of students; 5) require
certifications from the Subject that any proposals submitted contain no forms of research
misconduct for 3 years following the 2-year suspension specified above; and 6) postpone the
Subject's tenure review for 6 years. 22

                             OIG's Investigation and Assessment

        We reviewed the University report and find that the University investigation was
accurate, complete, and in accordance with reasonable procedures. We wrote to the Subject
offering him the opportunity to provide any additional information or comments he may have
with respect to the University report and our investigation?3 The Subject replied, indicating his
                                                                              4
agreement with the U:niversity report and providing no additional comments?

        A fmding of misconduct requires that: (1) there be a significant departure from accepted
practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the evidence. 25




17
   Tab 6 at 85.
18
   Tab 6 at 82 and 85.
19
   Tab 6 at 86-87.
2()




   Tab 6 at 88-89.
23
   Tab 7 at 95.
24
   Tab 7 at 96.
25
   45 C.F.R. 6892(c).


                                                                                                    3
CONFIDENTIAL                                                                     CONFIDENTIAL


                                                     The Act

       The Subject admitted his responsibility for the 108 lines of text with 4 embedded
references copied from the Source, an awarded NSF CAREER proposaL We concur with the
Committee that the Subject's actions were a significant departure from the accepted practices of
the Subject's research communi~. 26 The Subject's unattributed copying is consistent with
                                2
NSF's definition of plagiarism.



  .     The Subject told the Committee he gave the Source to the student, but also that his
                                                                           28
intention was to have the student "write a draft proposal in his own words" for the purpose of
helping the student- a potential doctoral student - understand the work of Ph.D. students and
professors. Even so, he did not thoroughly review the work of the student and provide proper
mentoring. At the same time, he admitted to accepting the student's first draft of an important
proposal without thorough review or substantive revision.

        The Subject' s actions in this case demonstrate a reckless disregard for proper scholarship.
The Grant Proposal Guide (GPG) states: "The responsibility for proper scholarship and
attribution rests with the authors of a proposal; all parts of the proposal should be prepared with
equal care for this concern. " 29 The Committee stated that "writing a proposal of this importance
normally involves multiple drafts and a series of revisions by all authors involved." 30 Also, the
University's review of the Subject's other publications identified no plagiarism, indicating the
Subject had a working knowledge of scholarly standards. The Committee also found that "he .
agreed that he is responsible for the entire content of the proposal."31 Nevertheless, by his own
                                                 32
admission, he expended little effort on review, despite the fact that the stakes - years of
funding for his research, professional reputation, etc. - were high.

      We concl.rr with the Deciding Official that the Subject's actions constitute a reckless act,
demonstrated by his lack of review of a CAREER proposal, which he allowed a student to draft.

                                               Standard o[Proo[

        The preponderance of the evidence, including the Subject's admission, supports that the
Subject recklessly plagiarized from the Source in the Proposal and that his actions were a
significant departure from the accepted practices of the relevant research community.

        We therefore conclude that the Subject' s actions constitute research misconduct.



26
   Tab 6 at 85.
27
   45 C.F.R. 689.l(a)(3)
28
   Tab 6 at 81.
29
   NSF Grant Proposal Guide Section LD .3 (NSF 10-0 l ).
30
   Tab 6 at 82 .
31
   Tab 6 at 86.
32
   Tab 6 at 80-81. An audio recording of the interview is available on request


                                                                                                     4
CONFIDENTIAL                                                                   CONFIDENTIAL


                                  OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances.33

                                              Seriousness

        The Subject's actions constitute a substantial amount of nearly verbatim copying which
he presented to NSF as his original work. Additionally, the Proposal is a CAREER proposal,
which requests a significant amount of funding. The CAREER program is a highly competitive
and prestigious NSF program which provides career support for investigators in a tenure-track
position at their institutions. Much of the copied text relates to broader impacts (i.e., Criterion 2)
for educational implementations, outreach, and career plans. As such, the Subject's ability to
follow 1prough with the proposed Criterion 2 goals is questionable in the absence of other
evidence. The Subject obtained the Source by submitting a FOIA request, which ultimately
resulted in the Source author sending a copy of his awarded CAREER proposal directly to the
Subject via e-mail. 34 Because the Source author sent the Subject the Source in good faith, the
copying violates this collegial trust.

                                 Degree to which the Act was Reckless

         We agree with the Committee that the failure to properly supervise the student and the
failure to review the student's draft, particularly with such a significant type of proposal, is a
very reckless act. The Subject provided the student who drafted the Proposal with the Source,
but he did not provide oversight or mentorship for the task. The Subject admitted that, due to
time pressure, he made only minimal edits to the Proposal after receiving one draft from the
student. These actions may deviate from those of a mentor and reasonable PI of a CAREER
proposal. The Subject's actions are not in line with the care exercised by a typical PI. We
therefore concur with the University that his actions were distinctly reckless.

                                          Pattern o(Behavior

        We concur with the University that the Subject' s act appears to be an isolated event and
not part of a broader pattern of behavior.

                                    Impact on the Research Record

           The Subject's act has no effect on the published research record.

33
     45 C.F.R. 689.3(b).
34
     See Tab 6 at 79-80.


                                                                                                     5
COJ\TFIDENTIAL                                                                            CONFIDENTIAL



                                                 Recommendations

         Based on the evidence, OIG recommends that NSF:

         •    Send the Subject a letter of reprimand notifying him that NSF has made a fmding of
              research misconduct; 35
         •    Require the Subject to certify to the Assistant Inspector General for Investigations
              (AlGI) his completion of both the RCR training program and the student mentoring
              specified by the University and provide documentation of the programs' content
              within 1 year ofNSF's finding; 36 ;
         •    Require the Subject to submit a certification to the AIGI for each proposal, report, or
              other document he submits for 3 years that the contents are not plagiarized, falsified,
              or fabricated; 37
         •    Require the Subject to submit assurances from a responsible official of his employer
              to the AIGI for each proposal, report, or other document he submits for 3 years that
              the contents are not plagiarized, falsified, or fabricated; 38 and
         •    Bar the Subject from participating as a reviewer, advisor, or consultant for NSF for a
              period of3 years. 39


                    The Subject's Response to OIG's Draft Investigation Report

       The Subject responded to our draft investigation report, agreeing with the substance. He
also posed questions not pertinent to the overall content, to which we sent a reply. The Subject
additionally provided documents demonstrating that he had satisfied the University's
requirement for training and for NSF's consideration with respect to OIG's recommendation for
RCR training. 40




35
   A Group I action45 C.F.R. 689.3(a)(I)(i).
36
   This action is not specified within the regulation (See 45 C.F.R. 689.3(a)). It is similar to Group I actions 45
C.F.R. 689.3(a)(l).
37
   This action is not specified within the regulation (See 45 C.F.R. 689.3(a)). It is similar to 45 C.F.R.
689 .3(a)(l)(iii).
38
   A Group I action 45 C.F.R. 689.3(a)(1Xiii).
39
   A Group ill action 45 C.F.R. 689.3(aX3)(ii).
40
   See Tab 9 for Subject's response to the draft report, our reply to the Subject, and documents provided by the
Subject for consideration.


                                                                                                                      6
CONFIDENTIAL                                                    CONFIDENTIAL


Attachments

  1.   The Proposal
  2.   The Source
  3.   OIG's Inquiry Letter to the Subject
  4.   The Subject's Response to the Inquiry
  5.   The Referral Letter
  6.   The University Report
  7.   The Subject's Comments regarding the University report
  8.   The University policy
  9.   The Subject's Response to the Draft ROI




                                                                               7
.   ''                                   NATIONAL SCIENCE FOUNDATION
                                               4201 WILSON BOULEVARD
                                              ARLINGTON, VIRGINIA 22230



                                                  APR 2 7 2012

              OFFICE OF THE
                DIRECTOR




         CERTIFIED MAIL --RETURN RECEIPT REQUESTED




                Re:     Notice of Research Misconduct Determination


         Dear-:
                In

                                        As documented in the attached Investigative Report prepared by
         NSF's Office of Inspector General ("OIG"), this proposal contained plagiarized material.

         Research Misconduct and Proposed Sanctions
                 Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
         or plagiarism in proposing or performing research funded by NSF ... "45 CFR § 689.l(a). NSF
         defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
         without giving appropriate credit." 45 CFR § 689.1 (a)(3). A fmding of research misconduct
         requires that:

                (1) There be a significant departure from accepted practices of the relevant research
                      community; and
                (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
                (3) The allegation be proven by a preponderance of evidence.

         45 CFR § 689.2(c).
                                                                                              Page2
         Your proposal contained verbatim and paraphrased text, including embedded references,
copied from another CAREER proposal that had been submitted previously to NSF. By
submitting a proposal to NSF that copied the ideas or words of another without adequate
attribution, as described in the OIG investigative report, you misrepresented someone else' s work
as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude that your
actions meet the definition of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the investigative report, NSF has determined that, based on a preponderance of the
 evidence, your plagiarism was committed recklessly and constituted a significant departure from
 accepted practices of the relevant research community. I am, therefore, issuing a finding of
 research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a fmding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was an isolated incident, and had
no impact on the research record, as well as other relevant circumstances. 45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

        (1) Until April30, 2015, you must provide certifications to the OIG that any proposal or
            report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
            fabricated material;

        (2) Until April30, 2015, you must obtain, and provide to the OIG, assurances from a
            responsible official of your employer that any proposal or report you submit to NSF as
            a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

        (3) Until April30, 2015, you are prohibited from serving as a reviewer, advisor, or
            consultant on NSF proposals; and
                                                                                            Page 3
       (4) By April30. 2013, you must certify to the OIG your completion ofboth the
           responsible conduct of research training program and the student mentoring program
           specified by the University, and provide documentation of the programs' content.

       The certifications and assurances should be submitted in writing to OIG, Associate
Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.

Procedures Governing Appeals
       Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please c a l l - , Assistant General Counsel, at (703)
292-8060.



                                                    Sincerely,




                                                    Wanda Ward
                                                    Senior Advisor to the Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
